TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Improvements Are Needed to Ensure the
                 Business Master File Case Creation Nonfiler
                 Identification Process Is Working Effectively



                                        February 17, 2012

                              Reference Number: 2012-30-020




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                    HIGHLIGHTS


IMPROVEMENTS ARE NEEDED TO                             established a proactive approach to risk
ENSURE THE BUSINESS MASTER FILE                        management and very specific goals and target
CASE CREATION NONFILER                                 dates after BMF CCNIP implementation. TIGTA
IDENTIFICATION PROCESS IS WORKING                      does not believe it is proactive to allow
                                                       additional time to pass when indications suggest
EFFECTIVELY
                                                       an opportunity to make improvements.
                                                       TIGTA also determined that many of the BMF
Highlights                                             CCNIP cases assigned high-priority selection
                                                       codes also had conflicting, low-priority primary
Final Report issued on February 17, 2012               codes (Primary Code B). There is a higher risk
                                                       that collection actions may be delayed and
Highlights of Reference Number: 2012-30-020            revenue will remain uncollected on these cases.
to the Internal Revenue Service Commissioner           In addition, some of the BMF CCNIP selection
for the Small Business/Self-Employed Division.         code criteria were inconsistent and not formally
                                                       documented.
IMPACT ON TAXPAYERS
                                                       WHAT TIGTA RECOMMENDED
Each year, the IRS identifies more potential
business nonfiler cases than it has the capacity       TIGTA recommended that the Director,
to work. Many of the worked cases are closed           Enterprise Collection Strategy, Small Business/
because the business was not required to file a        Self-Employed Division: 1) determine the
tax return, which is generally an unproductive         causes of increases or decreases in closure
use of the IRS’s enforcement resources and             types and make selection code adjustments;
burdensome to taxpayers. In addition,                  2) monitor all higher priority selection code
taxpayers who do not file and pay their taxes          cases to ensure they are not also designated as
create an unfair burden on compliant taxpayers.        Primary Code B; 3) determine whether cases
                                                       that have been suspended from further
WHY TIGTA DID THE AUDIT                                collection activity need further evaluation or
TIGTA initiated this audit to determine whether        collection actions; and 4) formalize clear and
the Business Master File Case Creation Nonfiler        consistent selection code criteria.
Identification Process (BMF CCNIP)                     In their response to the report, IRS officials
implementation was effective in targeting              agreed with Recommendations 1, 2, and 4, and
business nonfilers who may be delinquent in            plan to take appropriate corrective and
filing their required tax returns by improving         monitoring actions. IRS officials stated they do
workload selection and casework quality.               not agree with Recommendation 3 due to
                                                       current resource constraints and believe that the
WHAT TIGTA FOUND
                                                       resource cost would outweigh the benefits of this
TIGTA’s comparison of the Baseline Business            recommendation. As resource constraints
Case goals to Collection Activity Report data for      change, they plan to consider whether actions in
Fiscal Years 2010 and 2011 showed nonliable            this area are appropriate.
closures increased rather than decreased as
                                                       TIGTA continues to believe that identification
expected. In addition, the number of returns
                                                       and analysis of the cases suspended from
secured increased as expected, but this may
                                                       further collection activity is important. Because
have been caused by an increase in the total
                                                       the BMF CCNIP has already scored these cases
closed inventory. The percentage of returns
                                                       as higher priority, there is a greater likelihood of
secured compared with the entire closed
                                                       taxpayers filing a return and paying taxes.
inventory decreased in Fiscal Year 2010, but
increased in Fiscal Year 2011.
IRS officials advised us that they believe it is too
early to measure BMF CCNIP performance
results. However, the Baseline Business Case
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          February 17, 2012


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Improvements Are Needed to Ensure the Business
                             Master File Case Creation Nonfiler Identification Process Is Working
                             Effectively (Audit # 201030019)

 This report presents the results of our review to determine whether the Business Master File Case
 Creation Nonfiler Identification Process implementation was effective in targeting business
 nonfilers who may be delinquent in filing their required tax returns by improving workload
 selection and casework quality. This audit was conducted as part of our Fiscal Year 2011
 Annual Audit Plan and addresses the major management challenge of Tax Compliance
 Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                                          Improvements Are Needed to Ensure the
                                        Business Master File Case Creation Nonfiler
                                        Identification Process Is Working Effectively




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Business Master File Case Creation Nonfiler
          Identification Process Is Providing a More Balanced
          Workload....................................................................................................... Page 4
          Initial Results Did Not Meet All Baseline Business
          Case Goals .................................................................................................... Page 5
                     Recommendation 1:........................................................ Page 11

          Conflicting Primary Codes May Delay Collection
          Actions .......................................................................................................... Page 12
                     Recommendations 2 and 3: .............................................. Page 14

          Selection Code Criteria Was Inconsistent and Not
          Formally Documented .................................................................................. Page 15
                     Recommendation 4:........................................................ Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 17
          Appendix II – Major Contributors to This Report ........................................ Page 20
          Appendix III – Report Distribution List ....................................................... Page 21
          Appendix IV – Return Delinquency Transaction Codes .............................. Page 22
          Appendix V – Glossary of Terms ................................................................. Page 23
          Appendix VI – Management’s Response to the Draft Report ...................... Page 27
              Improvements Are Needed to Ensure the
            Business Master File Case Creation Nonfiler
            Identification Process Is Working Effectively




                  Abbreviations

BMF CCNIP   Business Master File Case Creation Nonfiler Identification
            Process
FY          Fiscal Year
IRS         Internal Revenue Service
PC-B        Primary Code B
TC          Transaction Code
                                     Improvements Are Needed to Ensure the
                                   Business Master File Case Creation Nonfiler
                                   Identification Process Is Working Effectively




                                              Background

Nonfilers1 are individuals and businesses that are legally required to file tax returns but have
failed to file the tax returns when they are due. The Internal Revenue Service (IRS) considers
nonfiling to be an egregious problem because it creates an unfair burden on compliant taxpayers
and can cause them to lose faith in the fairness of the tax system. Taxpayers who timely file and
pay their taxes want to be confident that other taxpayers are doing the same.
The IRS defines the gross Tax Gap as the difference between the estimated amount taxpayers
owe and the amount they voluntarily and timely pay in a tax year. In February 2006, based upon
the best information available, the IRS estimated the gross Tax Gap at $345 billion for Tax
Year 2001. The IRS has also reported that individual nonfilers accounted for an estimated
$30 billion of the total Tax Gap for Tax Year 2001. The IRS does not have an estimate of the
business nonfiler Tax Gap. However, each year the IRS identifies more potential business
nonfiler cases than it has the capacity to work. Many of these cases will not be resolved, and
many cases that are worked will be closed because the business was not required to file a tax
return. In general, this situation results in an unproductive use of IRS enforcement resources and
is burdensome for taxpayers. As a result, IRS nonfiler strategies have included refining the
processes for selection and modeling of nonfiler cases each year through risk-based compliance
approaches. The intention is to identify and select the most productive nonfiler inventory and
then apply appropriate compliance treatments to high-priority cases.
The Individual Master File Case Creation Nonfiler Identification Program is a tool used to
identify individual nonfilers. This Program identifies taxpayers who have filed an individual
income tax return in the prior year but failed to file in the current year and for whom the IRS
has received third-party reporting information, e.g., wages and other income. Based on
characteristics such as reported income and withholding data, this information is then used to
assign a selection code to nonfiler cases, which will prioritize inventory and allow selection of
the most productive individual nonfiler cases.
In the past, the IRS did not have a similar tool for business taxpayers. Instead, the IRS relied
exclusively on the Business Master File to identify business nonfilers solely from missing
returns. Filing requirements for business taxpayers include specific conditions or situations,
e.g., number of employees; type of organization entity; or amount of wages paid that, when
present, requires the submission of a Federal tax return. The only criteria for sending a
delinquency notification to a business taxpayer was an open filing requirement and the absence
of a filed tax return. The system used no external data, such as third-party reporting information,
to identify and create the delinquent return investigation cases that could be potentially worked

1
    See Appendix V for a glossary of terms.
                                                                                             Page 1
                                 Improvements Are Needed to Ensure the
                               Business Master File Case Creation Nonfiler
                               Identification Process Is Working Effectively



by IRS employees. Responses to delinquency notifications sent to taxpayers often revealed that
the taxpayers were no longer in business.
In Fiscal Year (FY) 2002, the Treasury Inspector General for Tax Administration recommended
the IRS match third-party reporting information with Business Master File information to
identify business nonfilers.2 In April 2009, the IRS implemented a new tool that expanded the
use of third-party information and research tools to enhance identification, selection, and
resolution of business nonfiler cases. This initiative, aimed at addressing longstanding business
nonfiler issues, is referred to as the Business Master File Case Creation Nonfiler Identification
Process (BMF CCNIP). Similar to the Individual Master File Case Creation Nonfiler
Identification Program for individual nonfilers, the BMF CCNIP uses third-party return
information and other IRS account data to select potential business nonfiler cases based on the
likelihood of securing returns and revenue. Although the IRS Small Business/Self-Employed
Division is the primary stakeholder, the BMF CCNIP also affects Large Business and
International Division and Tax Exempt and Government Entities Division taxpayers.
A primary objective of the BMF CCNIP is to prioritize business nonfiler cases by using
third-party and other account data to help identify indications of recent business activity.
Indications of recent business activity allow the IRS to identify potential business nonfiler cases
that are most likely to be active businesses. Based on analysis of these data, the BMF CCNIP
assigns the case a selection code (ranging from 01 to 99) which helps quantify its priority for
assignment. Cases assigned lower numbered selection codes have a higher priority. For
example, the three highest priority selection codes are as follows:
       01 – High Dollar Credits – Cases with credit balances greater than or equal to $100,000.
       02 – Large Dollar Credits – Cases with credit balances between $50,000 and $100,000.
       03 – Medium-Large Dollar Credits – Cases with credit balances between $10,000 and
        $50,000.
The selection codes assigned to potential business nonfiler cases are updated automatically every
week as new taxpayer information is received.
In a recent review of the IRS’s business nonfiler program, the Government Accountability Office
reported3 that, while the IRS has made good progress in implementing the BMF CCNIP, it has
not calculated the BMF CCNIP’s performance measures or planned the evaluations it would
need to assess success. The IRS responded that a planned report will show information on
resolution type for each case, selection code, and return type; whether the return was secured;

2
  Treasury Inspector General for Tax Administration, Ref. No. 2002-30-185, The Internal Revenue Service Should
Evaluate the Feasibility of Using Available Documents to Verify Information Reported on Business Tax Returns
(Sept. 2002).
3
  Government Accountability Office, GAO-10-950, TAX GAP: IRS Has Modernized Its Business Nonfiler Program
but Could Benefit from More Evaluation and Use of Third-Party Data (August 31, 2010).
                                                                                                       Page 2
                              Improvements Are Needed to Ensure the
                            Business Master File Case Creation Nonfiler
                            Identification Process Is Working Effectively



and revenue collected with the return. The IRS plans to use this report to assess the effectiveness
of the selection codes and track the volume of cases closed as not liable to file a return. IRS
officials did not know when the report would be available.
This review was performed at the IRS Small Business/Self-Employed Division Headquarters in
New Carrollton, Maryland, and the Philadelphia Campus in Philadelphia, Pennsylvania, during
the period July 2010 through July 2011. Our review was delayed because the IRS was unable to
timely provide us with the necessary data to conduct our testing of the BMF CCNIP selection
code assignments. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                            Page 3
                             Improvements Are Needed to Ensure the
                           Business Master File Case Creation Nonfiler
                           Identification Process Is Working Effectively




                                Results of Review

The Business Master File Case Creation Nonfiler Identification
Process Is Providing a More Balanced Workload
One of the goals of the BMF CCNIP is to enable more efficient targeting of business nonfilers
who may be delinquent in filing their required tax returns. Additionally, IRS officials informed
us that an objective of the BMF CCNIP was to identify and select more productive cases to work
and to improve workload management by improving workload selection.
According to IRS officials, before the BMF CCNIP was implemented, there was no way to
control inventory workload or perform inventory analysis. The IRS would generally select
potential nonfiler cases to be worked by the type of return, e.g., corporate returns, employment
tax returns, or partnership returns. This approach was not very effective at controlling the
volume of cases selected. For example, when a specific type of return was selected from nonfiler
inventory, all taxpayers with returns of that type would then be sent a delinquency notification.
The number of returns of a specific type could be large or small. As a result, the number of
delinquency notices generated and assigned to be worked varied widely from week to week.
The BMF CCNIP prioritizes nonfiler inventory with the introduction and use of selection codes.
In addition to type of return, the selection codes further categorize nonfiler cases by type of
third-party reporting information and various other account data. This process results in the
creation of more manageable groups of inventory and assigns each group a workload priority.
Consequently, there is better control and more consistency in the number of weekly delinquency
notices assigned to be worked by IRS employees. Business nonfiler cases are now moved into
the collection stream in a more consistent, balanced manner.
Figure 1 compares the moving average of the inventory (delinquency notifications) assigned
during each weekly cycle before and after implementation of the BMF CCNIP.




                                                                                          Page 4
                                   Improvements Are Needed to Ensure the
                                 Business Master File Case Creation Nonfiler
                                 Identification Process Is Working Effectively



                 Figure 1: Moving Average of Delinquency Notices Issued
                                   Per Weekly Cycle




        Source: Computer Paragraph 254 Notice data obtained from the IRS Servicewide Notice
        Information Program.

In Calendar Year 2008, before implementation of the BMF CCNIP, the number of delinquency
cases assigned to work varied considerably, as evidenced by the repeated spikes in the graph in
Figure 1. The variance in the moving average of weekly notices issued in Calendar Year 2010
(after implementation of the BMF CCNIP) shows less fluctuation and greater consistency, which
is an indication of a more balanced workload.

Initial Results Did Not Meet All Baseline Business Case Goals
The Government Performance and Results Act of 19935 establishes that Federal Government
agencies are expected to identify performance measures and have clear time periods and targets.


4
 Master File generated first Taxpayer Delinquent Investigation Notice for delinquent business tax returns.
5
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                             Page 5
                                     Improvements Are Needed to Ensure the
                                   Business Master File Case Creation Nonfiler
                                   Identification Process Is Working Effectively



In their Baseline Business Case, which introduced the benefits of implementing the BMF
CCNIP, IRS officials included goals for reducing the number of nonliable (Transaction Codes
(TC) 590–591)6 closures and increasing the number of returns secured (TC 599). Figure 2 shows
the stated performance measures and target dates as shown in the Baseline Business Case.
                      Figure 2: Baseline Business Case Current and Future
                        Strategic and Operational Performance Measures
            Performance Measures                  Current Value               Future Value           Target Date
                                                                                                     1st Quarter,
        Number of Nonliable Closures                    815,073                    407,537
                                                                                                         FY 09
                                                                                                     1st Quarter,
        Number of Returns Secured                     1,461,021                    1,583,282
                                                                                                         FY 09
        Net Taxpayer Delinquent                                                                      1st Quarter,
                                                  $10,352,341,889           $11,218,657,100
        Investigation Dollars Assessed                                                                   FY 09
        Taxpayer Delinquent                                                                          1st Quarter,
                                             $2,637,142,905                  $2,710,703,243
        Investigation Dollars Collected                                                                  FY 09
    Source: BMF CCNIP Baseline Business Case Table 3.

The goals were based on FY 2005 Collection Activity Report case closure results (shown as
“Current Value” in Figure 2). According to the Baseline Business Case, “there [was to] be one
release in April 2009 that will include [all] capability.” However, the target date set to achieve
the goals was the first quarter of FY 2009, which was prior to implementation of the BMF
CCNIP. In addition, the expected annual goal for nonliable closures and returns secured for
FYs 2008 through 2016 was not clearly explained. Figure 3 shows the specific performance
goals that were included in Table 9 of the IRS’s Baseline Business Case.
                 Figure 3: Baseline Business Case Nonmonetary Quantitative
                  Benefits/Strategic and Operational Performance Measures
           Performance Measures               FY 08          FY 09        FY 10          FY 11     FYs 12–16
           Reduction in
                                              407,537       407,537      407,537        407,537    2,037,685
           Nonliable Closures
           Higher Number
                                      1,583,282     1,583,282          1,583,282       1,583,282   7,916,410
           of Returns Secured
          Source: BMF CCNIP Baseline Business Case Table 9.

Figure 3 shows that in each year between FY 2008 and FY 2016, the number of nonliable
closures was expected to be reduced by 407,537. However, this chart is confusing because it
does not reference the baseline from which the reduction will be realized. It is likely the
reduction was based on the number of nonliable closures in the baseline year (FY 2005) and not


6
    See Appendix IV for a complete list of return delinquency transaction codes.
                                                                                                               Page 6
                                  Improvements Are Needed to Ensure the
                                Business Master File Case Creation Nonfiler
                                Identification Process Is Working Effectively



intended to mean that each year would have 407,537 fewer nonliable closures than the prior year
(which would eventually be zero).
IRS management could not provide us with clarification about the anticipated benefits. Instead,
management advised us that it would take years before any benefits could be measured. Despite
management’s position, we believe accountability is important, and IRS management established
these goals and benefits when justifying the resources needed to implement the BMF CCNIP.
Further, the BMF CCNIP Baseline Business Case included a proactive risk mitigation strategy:
       Risk management for the BMF CCNIP project is an iterative process, performed
       continuously over the project lifecycle. The process includes activities to identify,
       quantify, respond to, and control project risks. This process minimizes problems by
       anticipating rather than reacting to events.
As noted earlier, the Government Accountability Office reported that the IRS did not establish
performance measures or a tracking system that would allow it to determine if the BMF CCNIP
was realizing the expected benefits identified in the Baseline Business Case. As a result, the IRS
did not have information available to determine the effectiveness of the BMF CCNIP. However,
we attempted to identify trends to assist research efforts and make potential improvements. We
recognize these trends could be influenced by factors outside the control of the BMF CCNIP, but
we do not believe it is proactive to ignore or dismiss either favorable trends or potential early
warning signs. Such indicators could provide information to help the IRS make changes that will
improve the effectiveness of the BMF CCNIP without waiting through years of potentially weak
performance.
We compared7 the actual number of nonliable closures and returns secured that were reported by
the IRS in its Collection Activity Reports for FY 2010 and FY 2011 to the Baseline Business
Case goals. Figure 4 shows that instead of reducing the number of nonliable closures to
407,537 closures (which is 50 percent of the FY 2005 nonliable closures) as expected, the
number of nonliable closures actually increased to 1,421,169 (174 percent of FY 2005 nonliable
closures) in FY 2010 and 1,451,942 (178 percent of FY 2005 nonliable closures) in FY 2011.




7
 For these comparisons, we assumed the goals were intended to be the difference between the current year and the
baseline year of FY 2005, and not expected to decrease/increase relative to the preceding year. For example, we
assumed FY 2010 goal of 407,537 fewer nonliable closures was based on the 815,073 nonliable closures reported in
FY 2005, not 407,537 fewer closures than FY 2009.
                                                                                                         Page 7
                                Improvements Are Needed to Ensure the
                              Business Master File Case Creation Nonfiler
                              Identification Process Is Working Effectively



    Figure 4: Comparison of Baseline Business Case Nonliable Closure Goals
              With Collection Activity Reports for FYs 2010 and 2011




    Source: Our analysis of Collection Activity Reports and BMF CCNIP Baseline Business Case goals.

However, Figure 5 shows that the number of returns secured exceeded the goal of 1,583,282 for
both FYs 2010 and 2011. Specifically, returns secured increased to 1,766,001 in FY 2010 and
1,665,659 in FY 2011.
    Figure 5: Comparison of Baseline Business Case Returns Secured Goals
             With Collection Activity Reports for FYs 2010 and 2011




   Source: Our analysis of Collection Activity Reports and BMF CCNIP Baseline Business Case goals.


                                                                                                      Page 8
                                Improvements Are Needed to Ensure the
                              Business Master File Case Creation Nonfiler
                              Identification Process Is Working Effectively



However, the Baseline Business Case goals were numeric, which did not consider the impact of
increases or decreases in the total closed inventory. For example, if the total closed inventory
increased significantly, it would be more difficult for the IRS to decrease the total number of
nonliable closures because there are more cases that are worked. Similarly, a larger inventory
may have contributed to the increase in the number of returns secured. Therefore, we compared
the percentage of nonliable closures and returns secured with the total population of closed cases.
Figure 6 shows that, while the number of returns secured increased, the percentage of cases
closed as return secured actually decreased in FY 2010.
          Figure 6: Percentage of Returns Secured for FYs 2010 and 2011




   Source: Our analysis of Collection Activity Reports and BMF CCNIP Baseline Business Case goals.

The decrease in the percentage of returns secured suggests the increase in the number of returns
secured (Figure 5) was influenced by the increase in the total inventory of closed cases. The
number of total closures was much higher in FY 2010 (4,909,841) compared with FY 2005
(3,817,720). However, the percentage of cases closed as return secured did increase in FY 2011.
Figure 7 shows that the percentage of nonliable closures increased in both FY 2010 and
FY 2011 from FY 2005, which is consistent with the increases in the number of nonliable
closures shown in Figure 4 and contrary to the expected benefits that were cited in the BMF
CCNIP Baseline Business Case.




                                                                                                     Page 9
                                Improvements Are Needed to Ensure the
                              Business Master File Case Creation Nonfiler
                              Identification Process Is Working Effectively



        Figure 7: Percentage of Nonliable Closures for FY 2010 and FY 2011




  Source: Our analysis of Collection Activity Reports and BMF CCNIP Baseline Business Case goals.

In summary, FYs 2010 and 2011 Baseline Business Case goals were not met for nonliable
closures, either as a numeric goal or as a percentage of the total inventory. For returns secured,
the numeric goals were met in both FYs 2010 and 2011. However, the results in FY 2010 may
have been assisted by a significant increase in the total available inventory.
There were some limitations in these comparisons. IRS officials informed us that there were
various changes to the way delinquency notices were sent and how cases were worked during
these periods. For example, in FY 2008, the IRS changed the type of first delinquency notice
used for Business Master File taxpayers. The IRS began sending delinquency notices to new
associated delinquencies, which is when a taxpayer already had a delinquent return in Taxpayer
Delinquent Investigation or Taxpayer Delinquent Account status. Prior to this change,
delinquency notices were not sent on new delinquencies with existing associated delinquencies.
In addition, after BMF CCNIP was implemented, Collection employees were required to
consider all potential delinquent returns when working on taxpayers’ responses to delinquency
notices. Prior to the implementation, employees were required to consider only the specific
delinquent returns based on the taxpayer’s response. These changes may have caused an
increase in the number of nonliable closures and account for some of the increases shown in our
comparisons. However, the BMF CCNIP goals were not changed, even though the IRS planned
future iterations of the Baseline Business Case.
Finally, IRS officials informed us that BMF CCNIP cases closed within the first few years after
implementation were likely to be simpler cases or those closed as nonliable, and more
complicated cases would take much longer to close. However, this risk would have been known

                                                                                                    Page 10
                              Improvements Are Needed to Ensure the
                            Business Master File Case Creation Nonfiler
                            Identification Process Is Working Effectively



at the time the Baseline Business Case goals were established, but it was not reflected in the
expected benefits. Instead, the nonliable closures goal was the same in each year after
implementation.
As an interim BMF CCNIP performance measure, IRS officials use the delinquency notice
response rate, which measures taxpayers’ responses to IRS delinquency notifications. IRS
management advised us that the response rate to notices had doubled since the start of the BMF
CCNIP, increasing from about 15 percent to nearly 30 percent, but added it was too early to
identify any trends. In response to the 2010 Government Accountability Office report, the IRS
indicated that many delinquencies must flow through the entire compliance stream before there
is resolution and, therefore, data that measure the BMF CCNIP selection code effectiveness
should not be studied until they are complete and available. Management also informed us that
information management reports and data necessary to assess the BMF CCNIP performance,
which was expected to be available at the end of FY 2011, will not be available until the end of
FY 2012. In addition, further delays are possible if needed funding for the completion of the
project is not provided. Given these delays and uncertainties, we believe it would be prudent for
the IRS to evaluate and determine the causes of these early trends. This assessment will allow
the IRS to make more timely adjustments and improvements to the BMF CCNIP selection codes,
if needed.

Recommendation
Recommendation 1: The Director, Enterprise Collection Strategy, Small
Business/Self-Employed Division, should conduct an evaluation to determine the causes
of increases or decreases in closure types since implementation of the BMF CCNIP. The
results should be used to make appropriate adjustments to the BMF CCNIP selection codes
and performance measures, if needed.
       Management’s Response: IRS officials agreed with this recommendation.
       Delinquent return cases are selected through schedules developed by analysts. The IRS
       will perform an analysis of the schedules and output pre- and post-BMF CCNIP
       implementation to determine how the selection of Master File Tax Account code,
       selection code, and primary code influenced results. Also, the IRS will perform an
       analysis to determine if the linked rule is unduly affecting results. The analysis will look
       for improvements in selection and primary code assignment. If improvements to
       selection and primary coding are needed, coordination with the Modernization and
       Information Technology Services organization will be initiated and a Unified Work
       Request will be submitted.




                                                                                           Page 11
                              Improvements Are Needed to Ensure the
                            Business Master File Case Creation Nonfiler
                            Identification Process Is Working Effectively



Conflicting Primary Codes May Delay Collection Actions
Although the number of potential business nonfiler cases available to be assigned and worked is
increasing, many will remain unassigned due to IRS resource constraints. The IRS estimates as
much as 50 percent of the available inventory will not be worked. IRS officials informed us they
select about 120,000 cases each week to be assigned to be worked, which is approximately
six million per year. This contrasts with more than 98 million potential business nonfiler cases
that were available to be assigned (as of August 2011). Generally, cases available to be assigned
will remain in business nonfiler inventory for six years. It is clear that identifying potential
high-priority business nonfiler inventory is very important.
In addition to selection codes, cases are also assigned a primary code. Primary codes existed
prior to the implementation of the BMF CCNIP and were the only way a potential return
delinquency case was categorized by the Business Master File. Primary codes are used to
determine the number of delinquency notices the case receives, what happens after notifications
are sent, and which function is assigned to work the case. Business nonfiler cases generally
receive a primary code A, B, or X designation. Primary code B (PC-B) cases are considered the
lowest priority cases and receive only one IRS delinquency notification letter. Business nonfiler
cases without the PC-B designation may receive up to two delinquent return notifications. For
example, if the taxpayer does not respond to the first notification, a second delinquent return
notification will be sent. Although the BMF CCNIP now includes third-party information to
prioritize cases and assign selection codes, IRS management in the Automated Collection
System and Collection Field functions elected to keep using primary codes to assign their own
inventories. In addition, these functions chose not to program the Automated Collection System
and Integrated Collection System to populate the selection codes from the BMF CCNIP. IRS
management stated this decision was due to additional programming costs necessary for adding
the selection codes to those systems. In addition, employees were already using primary codes
and were familiar with them.
Our analysis shows that higher priority selection code cases can, and often do, carry the lower
priority PC-B designation. These two designations contradict each other and are, therefore,
counterproductive. Figure 9 shows more than one-half of all cases with PC-B designations that
were processed through the BMF CCNIP between May 2009 and November 2010 also carried a
high-priority selection code (selection codes 01 through 10). Specifically, there were
1,123,877 cases with the 10 highest priority selection codes also designated as PC-B cases,
indicating the lowest priority.




                                                                                          Page 12
                                Improvements Are Needed to Ensure the
                              Business Master File Case Creation Nonfiler
                              Identification Process Is Working Effectively



                   Figure 9: Selection Codes With a PC-B Designation

                  Selection Code                     PC-B Cases             Percentage
                  01 through 10                       1,123,877                51%
                  11 through 99                       1,083,898                49%
                  Total                               2,207,775               100%
               Source: Our analysis of the BMF CCNIP closed case results.

The 2,207,775 PC-B designated cases represent approximately 69 percent of the overall closed
BMF CCNIP cases during this period. IRS officials informed us that the BMF CCNIP should
not be assigning most of the higher priority selection codes with a PC-B designation and that a
programming error was a possible cause. This condition had been occurring since
implementation of the BMF CCNIP in April 2009 but was not discovered and corrected until
April 2010. We believe this condition supports our position that waiting years to analyze the
data is not proactive. Further, the correction does not appear to have fixed the problem.
Figure 10 shows our analysis of higher priority selection codes before the programming error
was corrected compared with after the correction was made.
                   Figure 10: Selection Codes With PC-B Designation
                       Before and After Programming Correction




  Source: Our analysis of the BMF CCNIP closed case results.

Before the programming correction, 46 percent of the higher priority selection codes (selection
codes 01 through 10) also carried a PC-B designation. However, after the correction, 73 percent
of the higher priority selection codes had a PC-B designation.



                                                                                         Page 13
                              Improvements Are Needed to Ensure the
                            Business Master File Case Creation Nonfiler
                            Identification Process Is Working Effectively



Because primary codes are used to determine the number of return delinquency notifications to
send to taxpayers, it is possible that cases with a high-priority selection code, but also a
low-priority PC-B designation, would not receive additional collection actions beyond the first
delinquency notification. For example, PC-B designation cases would:
      Not be sent a second delinquency notification (follow-up notice).
      Not be elevated to Status 03 (Taxpayer Delinquent Account status) where active
       collection would continue, meaning they may not be assigned to alternative collection
       treatment streams such as the Automated Collection System or the Collection Field
       function.
      Be suspended from further collection activity (suppressed) if there was no response or
       resolution by the taxpayer after 10 weeks.
      Be closed as “no longer liable for tax” if the suspended cases had no further activity after
       24 months. However, before the case is closed, a final review is completed to check for
       any outstanding conditions such as credit balances or returns previously filed. In
       addition, if at any time during this period there is continued noncompliance by the
       taxpayer, it would cause the case to be accelerated to the Collection Field function to be
       worked.
As a result, there is a higher risk that collection actions may be delayed and revenue will remain
uncollected on delinquent return cases with high-priority selection codes that carry PC-B
designations.

Recommendations
The Director, Enterprise Collection Strategy, Small Business/Self-Employed Division, should:
Recommendation 2: Monitor all higher priority selection code cases to ensure they are not
also assigned a PC-B designation.
       Management’s Response: IRS management agreed with this recommendation.
       They will monitor the assignment of both selection and primary codes by reviewing
       delinquencies through the BMF CCNIP Quality Assurance screens. The Quality
       Assurance screen allows analysts to select segments of delinquent return cases for review
       post-creation. Any identified systemic issues with regard to business rules will be
       coordinated with the Modernization and Information Technology Services organization.
Recommendation 3: Determine whether cases that have been suspended from further
collection activity (suppressed) and have both high selection codes and PC-B designations need
further evaluation or require additional collection actions.



                                                                                           Page 14
                               Improvements Are Needed to Ensure the
                             Business Master File Case Creation Nonfiler
                             Identification Process Is Working Effectively



       Management’s Response: IRS management did not agree with this recommendation
       due to current resource constraints. Identification and the re-creation of suppressed
       delinquencies would require coordination with the Modernization and Information
       Technology Services organization and the expenditure of significant Small Business/
       Self-Employed Division campus resources. Given the large volume of available current
       inventory, the IRS believes that the resource cost would outweigh the benefits of this
       recommendation. As resource constraints change, it will consider whether actions in this
       area are appropriate.
       Office of Audit Comment: The Treasury Inspector General for Tax Administration
       continues to believe that identification and analysis of the cases suspended from further
       collection activity is important. Because the BMF CCNIP has already scored these cases
       as higher priority, there is a greater likelihood of taxpayers filing a return and paying
       taxes.

Selection Code Criteria Was Inconsistent and Not Formally
Documented
Sound management principles support that organizational rules, policies, and procedures be
clear, consistent, and updated in writing. Such consistent, written documentation provides clear
guidance and identifies specific steps to follow when carrying out organizational tasks and
responsibilities. It also provides reference points for employee responsibilities and
troubleshooting and serves as a current standard or benchmark when updating adjustments or
making changes.
The BMF CCNIP has numerous selection codes that include the Last Return Amount as a
component in the criteria. This designation helps prioritize business nonfiler inventory by
identifying tax liabilities of recently filed returns from taxpayers who may be noncompliant. We
reviewed 210 judgmentally selected BMF CCNIP cases and identified eight (4 percent) cases
that were assigned incorrect selection codes due to the inconsistent application of the Last Return
Amount criteria. Three of the eight cases were assigned selection code “07” and five were
assigned selection code “08.” According to IRS officials, these codes require a search for filed
tax returns having tax liabilities within certain dollar ranges. These tax returns are further
identified by searching for any tax periods within the same tax year of the potential return
delinquency as well as prior tax periods. However, some of the cases we reviewed identified tax
periods within the same tax year and subsequent tax periods in an attempt to satisfy this
condition. As a result, these eight cases did not identify the correct tax periods, which resulted in
an incorrect selection code.
We attempted to identify the criteria for BMF CCNIP selection codes using Document 6209,
IRS Processing Codes and Information (2011 edition), which lists the Business Master File
criteria for selection codes. However, this document does not specifically define all the terms

                                                                                            Page 15
                                Improvements Are Needed to Ensure the
                              Business Master File Case Creation Nonfiler
                              Identification Process Is Working Effectively



used in the criteria or identify how or when the criteria are to be applied. IRS officials provided
us with interpretations of the criteria through a series of discussions and e-mails and advised us
that the BMF CCNIP Selection Code Rules Document (October 2009) included the relevant
information. It was also noted that this documentation was jointly developed by Small Business/
Self-Employed Division officials and IRS computer programmers. However, these documents
and the information provided were not only confusing but contained conflicting and incomplete
information. IRS officials later advised us that the BMF CCNIP Selection Code Rules Document
had not been updated properly and the problem occurred due to a programming error. However,
the unclear and inconsistent documentation of selection code criteria and terms may have
contributed to the conflicting application of some of the BMF CCNIP criteria, such as the
Last Return Amount.
The incorrect use of selection codes can result in the assignment of cases that do not meet the
criteria for assignment to employees and a failure to assign cases with a higher likelihood of
collecting a liability.

Recommendation
Recommendation 4: The Director, Enterprise Collection Strategy, Small Business/
Self-Employed Division, should develop clear and consistent documentation
for BMF CCNIP business rules (criteria) and formalize the standard.
        Management’s Response: IRS management agreed with this recommendation.
        BMF CCNIP documentation exists and is stored on DocIT.8 All documentation will be
        reviewed and updated to ensure consistency with regard to business rules and
        programming implementation. This will be a joint effort between the Enterprise
        Collection Strategy function and the Modernization and Information Technology
        Services organization Application Development for BMF CCNIP function.




8
 DocIT is a web-based electronic document management system powered by the enterprise standard tool
Documentum. Documentum provides documentation control for information technology projects. DocIT manages
more than half a million internal project documents within the IRS for more than 3,000 internal users.
                                                                                                Page 16
                                     Improvements Are Needed to Ensure the
                                   Business Master File Case Creation Nonfiler
                                   Identification Process Is Working Effectively



                                                                                         Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the BMF CCNIP implementation was effective
in targeting business nonfilers1 who may be delinquent in filing their required tax returns by
improving workload selection and casework quality. To accomplish this objective, we:
I.         Determined whether business nonfiler cases were properly selected and prioritized for
           inclusion in potential case workload inventory.
           A. Interviewed Headquarters analysts to determine how the overall selection process
              works, their role in the process, and when/where the BMF CCNIP is used.
           B. Determined the methods and appropriateness for categorizing and prioritizing cases,
              e.g., Inventory Delivery System and Consolidated Decision Analytics, and when this
              occurs.
           C. Identified the selection codes and the selection code criteria.
           D. Determined the appropriateness of the criteria applied in the selection process and the
              process used to select case inventory when requested by the campuses for collection
              work.
           E. Conducted a case review of a judgmental sample of 210 cases from the BMF CCNIP
              available inventory database and evaluated whether they met the selection code
              criteria. A judgmental sample was used because the population was unknown. The
              available inventory is updated and changes on a weekly basis in the BMF CCNIP
              database.
               1. Completed a Unified Work Request and submitted it to the IRS Small
                  Business/Self-Employed Division for approval and submission to the IRS
                  Modernization and Information Technology Services organization to obtain the
                  data. We requested the first 10 cases from each available BMF CCNIP selection
                  code. We reviewed the first three cases of each of 44 different selection codes
                  and, if we found errors in any one of those cases, we reviewed the remaining
                  seven cases.
               2. Established the reliability of these data by verifying various data fields to the
                  Integrated Data Retrieval System for the 210 cases.


1
    See Appendix V for a glossary of terms.
                                                                                                Page 17
                            Improvements Are Needed to Ensure the
                          Business Master File Case Creation Nonfiler
                          Identification Process Is Working Effectively



         3. Reviewed the cases by verifying the selection codes assigned with the appropriate
            selection code criteria.
II.   Determined the overall performance results of the BMF CCNIP.
      A. Determined whether the BMF CCNIP has specific application goals and objectives.
      B. Determined how the IRS is assessing the performance of the BMF CCNIP in
         attaining its goals and objectives as identified in Step II.A.
         1. Obtained performance results documentation.
         2. Determined whether the BMF CCNIP is achieving its goals and objectives.
      C. Determined the BMF CCNIP performance results.
         1. Obtained the open and closed delinquent return investigation cases on the
            Business Master File that had been through the BMF CCNIP process from
            May 2009 through November 2010.
             a. Established the reliability of these data by verifying various data fields to the
                Integrated Data Retrieval System. We also obtained the data sets and job logs
                for both open and closed cases.
             b. Identified the population of open and closed cases by eliminating the records
                that did not meet our criteria.
         2. Determined the number of nonliable closures (TC 590 and TC 591) and returns
            secured (TC 599) from the IRS’s Collection Activity Reports for the prior
            19-month period (October 2007–April 2009) before the BMF CCNIP was
            implemented and compared it to the data for the 19-month period after the
            implementation of the BMF CCNIP (May 2009–November 2010).
         3. Compared FY 2005 data (obtained from the BMF CCNIP Baseline Business
            Case) against FYs 2010 and 2011 data (obtained from the Collection Activity
            Reports) to determine whether there was a decrease in nonliable closures and an
            increase in returns secured.
         4. Interviewed employees within the Collection Field function, Campus Compliance
            Service Operations, and Automated Collection System, at the Philadelphia
            Campus to determine if workload inventory and casework quality had improved.




                                                                                         Page 18
                              Improvements Are Needed to Ensure the
                            Business Master File Case Creation Nonfiler
                            Identification Process Is Working Effectively



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
prioritizing and selecting business nonfilers as well as measuring the overall performance of the
BMF CCNIP. We evaluated these controls by reviewing source materials, interviewing
management, reviewing delinquent return case files, and researching taxpayer accounts.




                                                                                           Page 19
                            Improvements Are Needed to Ensure the
                          Business Master File Case Creation Nonfiler
                          Identification Process Is Working Effectively



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Phyllis Heald London, Audit Manager
Julian E. O’Neal, Lead Auditor
Richard J. Viscusi, Senior Auditor
Rebecca A. Arendosh, Auditor




                                                                                      Page 20
                            Improvements Are Needed to Ensure the
                          Business Master File Case Creation Nonfiler
                          Identification Process Is Working Effectively



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Enterprise Collection Strategy, Small Business/Self-Employed Division SE:S:ESC
Director, Research, Small Business/Self-Employed Division SE:S:R
Director, Collection Policy, Small Business/Self-Employed Division SE:S:ESC:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:COM




                                                                                    Page 21
                                     Improvements Are Needed to Ensure the
                                   Business Master File Case Creation Nonfiler
                                   Identification Process Is Working Effectively



                                                                                          Appendix IV

                 Return Delinquency Transaction Codes1

       Transaction Code                                      Definition

              TC 590            Not liable this tax period. Satisfies this module only.

              TC 591            No longer liable for tax. Satisfies this module and all subsequent
                                modules for same Master File Tax Account Codes if not already
                                delinquent.

              TC 593            Unable to locate taxpayer. Satisfies this module and all subsequent
                                modules for same Master File Tax Account.

              TC 594            Return previously filed. Satisfies this module only.

              TC 595            Referred to Examination. Satisfies this module and all subsequent
                                modules for same Master File Tax Account.

              TC 596            Referred to Criminal Investigation. Satisfies this module and all
                                subsequent modules for same Master File Tax Account.

              TC 597            Surveyed. Satisfies this module only.

              TC 598            Shelved. Satisfies this module only.

              TC 599            Return secured. Satisfies this module only.
     Source: Document 6209, IRS Processing Codes and Information, Chapter 11.8.3.




1
    See Appendix V for a glossary of terms.
                                                                                                Page 22
                               Improvements Are Needed to Ensure the
                             Business Master File Case Creation Nonfiler
                             Identification Process Is Working Effectively



                                                                                 Appendix V

                                Glossary of Terms

                 Term                                        Definition
Automated Collection System          A telephone contact system through which telephone
                                     assistors collect unpaid taxes and secure tax returns from
                                     delinquent taxpayers who have not complied with
                                     previous notices.
Baseline Business Case               Presents an analysis of the qualitative and quantitative
                                     benefits expected to accrue from the BMF CCNIP.
Business Master File                 The IRS database that consists of Federal tax-related
                                     transactions and accounts for businesses, including
                                     employment taxes, income taxes on businesses, and excise
                                     taxes.
Calendar Year                        A 12-consecutive-month period beginning on the first day
                                     of January and ending on the last day of December.
Campus                               The data processing arm of the IRS. The campuses
                                     process paper and electronic submissions, correct errors,
                                     and forward data to the Computing Centers for analysis
                                     and posting to taxpayer accounts.
Collection Activity Report           A report that provides Collection function activity
                                     information from the beginning of the fiscal year through
                                     the end of the current reporting month.
Collection Field Function            The unit in the Area Offices consisting of revenue officers
                                     who handle personal contacts with taxpayers to collect
                                     delinquent accounts or secure unfiled returns.
Consolidated Decision Analytics      Decision analytics uses advanced modeling techniques
                                     that identify and prioritize the most productive cases for
                                     IRS employees to work.
Credit Balance                       Occurs on a taxpayer’s delinquent return when tax
                                     payments have been made prior to the return being filed.



                                                                                         Page 23
                              Improvements Are Needed to Ensure the
                            Business Master File Case Creation Nonfiler
                            Identification Process Is Working Effectively



              Term                                          Definition
Cycle                               The year and week in which the IRS posts account
                                    transactions or notices are issued to taxpayers.
Fiscal Year                         A 12-consecutive-month period ending on the last day of
                                    any month, except December. The Federal Government’s
                                    fiscal year begins on October 1 and ends on September 30.
Government Accountability Office    The investigative arm of Congress charged with
                                    examining matters relating to the receipt and payment of
                                    public funds.
Integrated Collection System        An information management system designed to improve
                                    revenue collections by providing revenue officers in the
                                    field access to the most current taxpayer information using
                                    laptop computers for quicker case resolution and
                                    improved customer service.
Integrated Data Retrieval System    An IRS computer system capable of retrieving or updating
                                    stored information. It works in conjunction with a
                                    taxpayer’s account records.
Inventory Delivery System           The inventory delivery system for collection cases that
                                    uses decision analytics, risk-based collection criteria, and
                                    established business rules to route cases to the Automated
                                    Collection System, the Queue, or directly to field
                                    assignment.
Large Business and International    The IRS organization that serves corporations,
Division                            subchapter S corporations, and partnerships with assets
                                    greater than $10 million.
Master File                         The IRS database that stores various types of taxpayer
                                    account information. This database includes individual,
                                    business, and employee plans and exempt organizations
                                    data.
Master File Tax Account Codes       The two-digit number codes that identify the type of
                                    return filed by the taxpayer.
Modernization and Information       The IRS organization designed to deliver information
Technology Services                 technology services and solutions that drive tax
                                    administration to help ensure public confidence.



                                                                                        Page 24
                            Improvements Are Needed to Ensure the
                          Business Master File Case Creation Nonfiler
                          Identification Process Is Working Effectively



              Term                                          Definition
Moving Average                    An average of data points for a certain number of time
                                  periods used to indicate trends.
Nonfilers                         Individual and business taxpayers who have been
                                  identified as liable to file a tax return but have not filed a
                                  tax return by the return due date or extended due date.
Queue                             An automated holding file for unassigned inventory of
                                  delinquent cases for which the Collection function does
                                  not have enough resources to immediately assign for
                                  contact.
Return Delinquency                An IRS program designed to work responses to notices
                                  issued to taxpayers identified as liable to file a tax return
                                  but have not filed.
Servicewide Notice Information    A program that allows IRS employees to report possible
Program                           erroneous taxpayer correspondence to the Notice
                                  Gatekeeper; view examples of IRS notices; link to
                                  Servicewide Notice Information Program Alerts, Internal
                                  Revenue Manual references, and other technical reference
                                  information pertaining to each notice; and determine the
                                  number of notices issued in a particular cycle.
Small Business/Self-Employed      The IRS organization that services self-employed
Division                          taxpayers and small businesses by educating and
                                  informing them of their tax obligations, developing
                                  educational products and services, and helping them
                                  understand and comply with applicable tax laws.
Tax Exempt and Government         The IRS organization established to improve the IRS’s
Entities Division                 ability to meet the special needs of pension plans, exempt
                                  organizations, and government entities in complying with
                                  the tax laws.




                                                                                         Page 25
                            Improvements Are Needed to Ensure the
                          Business Master File Case Creation Nonfiler
                          Identification Process Is Working Effectively



              Term                                          Definition
Tax Year                            The 12-month period for which tax is calculated. For
                                    most individual taxpayers, the tax year is synonymous
                                    with the calendar year.
Taxpayer Delinquent Investigation   An unfiled tax return for a taxpayer. One Taxpayer
                                    Delinquent Investigation exists for all tax periods.
Unified Work Request                Gives the detailed business requirements for data requests
                                    so that the IRS can properly review, assign, analyze, and
                                    respond (approve/deny) to the request and can also cost
                                    and schedule the request for the implementation and
                                    delivery of any agreed upon information technology
                                    products or services.




                                                                                       Page 26
           Improvements Are Needed to Ensure the
         Business Master File Case Creation Nonfiler
         Identification Process Is Working Effectively



                                                   Appendix VI

Management’s Response to the Draft Report




                                                         Page 27
  Improvements Are Needed to Ensure the
Business Master File Case Creation Nonfiler
Identification Process Is Working Effectively




                                                Page 28
  Improvements Are Needed to Ensure the
Business Master File Case Creation Nonfiler
Identification Process Is Working Effectively




                                                Page 29
  Improvements Are Needed to Ensure the
Business Master File Case Creation Nonfiler
Identification Process Is Working Effectively




                                                Page 30
  Improvements Are Needed to Ensure the
Business Master File Case Creation Nonfiler
Identification Process Is Working Effectively




                                                Page 31
